                             Department of Justice
                                      Office of Public Affairs
FOR IMMEDIATE RELEASE
                                                                             Monday, July 18, 2011


             Owner of Miami Company Sentenced to 63 Months in
          Prison for Scheme to Defraud the U.S. Export-Import Bank

WASHINGTON – The owner of an investment planning company in Miami was sentenced
today to 63 months in prison for his role in a scheme to defraud the Export-Import Bank of the
United States (Ex-Im Bank) of $5.2 million, announced Assistant Attorney General Lanny A.
Breuer of the Criminal Division and Osvaldo L. Gratacos, Inspector General of the Ex-Im Bank.

Carlos L. Morano, 51, was sentenced by Judge Cecilia M. Altonaga in U.S. District Court in
Miami. In addition to his prison term, Morano was sentenced to three years of supervised release
and was ordered to pay $5.2 million in restitution and $6.8 million in forfeiture. Morano pleaded
guilty on May 6, 2011, to one count of conspiracy to commit wire fraud and one count of wire
fraud in connection with a scheme to defraud the Ex-Im Bank of approximately $5.2 million.
Morano, a naturalized U.S. Citizen, most recently resided in Buenos Aires, Argentina, until his
arrest on Nov. 8, 2010, in Atlanta, where he arrived after an international flight from Argentina.
The warrant for his arrest was obtained by Ex-Im Office of Inspector General (OIG) Special
Agents.

According to court documents, Morano was the owner of CLM Financing and Investments, an
investment planning company located in Miami that purported to be in the business of brokering
loans and providing financial advice to Florida exporters. During his plea hearing, Morano
admitted that he assisted 17 exporters obtain fraudulent loans that were insured by the Ex-Im
Bank. According to court records, Morano and others misappropriated the loan proceeds for
their own use and benefit. From 2007 through 2010, Morano, through his company CLM,
charged exporters up to $35,000 to prepare fraudulent loan applications and financial statements.
Morano admitted that he instructed the exporters on how to prepare false purchase orders,
invoices, account receivable forms, and bills of lading to falsely represent to various lending
banks and the Ex-Im Bank the purchase and export of U.S. goods to buyers in South and Central
America. Morano often charged the exporters a monthly service fee to continue providing false
shipping documents and financial documents that would pass Ex-Im Bank review.
According to court records, all of the loans involving Morano were fraudulent. As a result of the
fraud, the loans went into default, causing the Ex-Im Bank to pay claims losses to the lending
banks in the amount of $5,219,756.

The Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. The Ex-Im Bank provides a variety of financing
mechanisms to help foreign buyers purchase U.S. goods and services.

The case is being prosecuted by Trial Attorneys Patrick Donley and William Bowne of the
Criminal Division’s Fraud Section. The case was investigated by the Ex-Im Bank OIG.
11-932
Criminal Division
 
